fan

C@OCKLE

: E-Mail Address:
Le Ba 1B riefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-631

WILLIAM P. BARR, ATTORNEY GENERAL,
FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,

v.

AMERICAN ASSOCIATION OF
POLITICAL CONSULTANTS INC., ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE INSTITUTE
FOR JUSTICE AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief

contains 3156 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as
needed.

Subscribed and sworn to before me this 1st day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

- SMOTARY-State of Ssbrasha
RENEE J. GOSS Konto. 9. Loao Queduan- K- Ghk
‘My Comm. Exp. September 5, 2023 f

Notary Public Affiant 3969

 
